No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JOSHUA RYAN DORMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Eastern District of Texas
Appendix C Judgment revoking probation from the Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 19-11375
Summary Calendar

August 26, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Joshua Ryan Dorman,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CR-74-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Joshua Ryan Dorman appeals the revocation of his supervised release
and the 18-month sentence imposed under 18 U.S.C. § 3583(g), which, in
relevant part, requires the revocation of supervised release where a defendant

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

No. 19-11375

possesses a controlled substance or tests positive for illegal drugs more than
three times in a year.
Relying on United States v. Haymond, 139 S. Ct. 2369 (2019), Dorman
first argues § 3583(g) is unconstitutional because it requires the district court
to revoke a defendant’s supervised release and impose a prison sentence
without affording the defendant the constitutional right to have the
allegations proven to a jury beyond a reasonable doubt. Because Dorman did
not assert this argument in the district court, plain error review applies. See
United States v. Trejo, 610 F.3d 308, 319 (5th Cir. 2010). Dorman must show
a clear or obvious error that affects his substantial rights. See id. If he is able
to make this showing, this court “should exercise its discretion to correct the
forfeited error if the error seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” Molina-Martinez v. United States, 136 S.
Ct. 1338, 1343 (2016) (internal quotation marks and citation omitted).
Dorman correctly concedes his argument that there was clear or obvious
error is foreclosed. Because “there currently is no caselaw from either the
Supreme Court or this court extending Haymond to § 3583(g) revocations,
the district court could not have committed any clear or obvious error in
applying the statute.” Badgett v. United States, 957 F.3d 536, 541 (5th Cir.
2020) (internal quotation marks and citation omitted).
Dorman next argues his sentence is substantively unreasonable
because, by treating revocation as mandatory under § 3583(g), the district
court considered an improper factor and made a clear error of judgment in
balancing the sentencing factors. A sentence imposed upon revocation of
supervised release is reviewed under the plainly unreasonable standard.
United States v. Miller, 634 F.3d 841, 843 (5th Cir. 2011). This court first
evaluates whether the district court procedurally erred and then considers
the substantive reasonableness of the sentence under an abuse of discretion
standard. Id. If the sentence is unreasonable, this court then considers

2

No. 19-11375

“whether the error was obvious under existing law.” Id. Even if we assume,
arguendo, that Dorman could show that the district court improperly based
its sentencing decision on the mandatory revocation provision of § 3583(g),
he would not be able to show the alleged error was obvious under existing
law. See Badgett, 957 F.3d at 541. Accordingly, he has not shown that his
sentence was plainly unreasonable.
The district court’s judgment is AFFIRMED.

3

APPENDIX B

OAO 245B

Case 5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 1 of 6 PageID #: 84
4:17-cr-00074-A
Page 8 of 13 PageID 9
(Rev.Case
09/08) Judgment
in a Criminal Case Document 2 Filed 05/05/17
Sheet 1

United States District Court
EASTERN DISTRICT OF TEXAS
Texarkana

JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA

V.
JOSHUA RYAN DORMAN

Case Number:

5:14CR00011-001

USM Number: 48561-177
KENNETH ROBERT HAWK II
Defendant’s Attorney

THE DEFENDANT:

✔pleaded guilty to count(s) 1 of the Indictment
G
G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 USC § 922(j)

Nature of Offense

Offense Ended

Possession of a Stolen Firearm

07/28/2014

6

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

G The defendant has been found not guilty on count(s)
✔Count(s) ALL REMAINING COUNTS
G

G is

Count

G are
✔

1

of this judgment. The sentence is imposed pursuant to

dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

4/23/2015
Date of Imposition of Judgment

Signature of Judge

Robert Schroeder
United States District Judge
Name and Title of Judge

4/28/15
Date

19-11375.14

AO 245B

Case 5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 2 of 6 PageID #: 85
Case 4:17-cr-00074-A Document 2 Filed 05/05/17 Page 9 of 13 PageID 10
(Rev. 09/08) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

2

of

6

DEFENDANT: JOSHUA RYAN DORMAN
CASE NUMBER: 5:14CR00011-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of: 30 months

The defendant has been in custody since August 29, 2014. The Court orders that the defendant be given credit for time
served.

✔
G

The court makes the following recommendations to the Bureau of Prisons:

The Court recommends that defendant receive appropriate mental health treatment and substance abuse treatment while
incarcerated, as deemed appropriate by the Federal Bureau of Prisons, and the defendant shall be incarcerated in FCI, Ft.
Worth, TX, if available and defendant is eligible.

✔
G

The defendant is remanded to the custody of the United States Marshal.

G

The defendant shall surrender to the United States Marshal for this district:

G

G

at

G

as notified by the United States Marshal.

G a.m.

G

p.m.

on

.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

G

before 2 p.m. on

G

as notified by the United States Marshal.

G

as notified by the Probation or Pretrial Services Office.

.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

19-11375.15

Case 5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 3 of 6 PageID #: 86
Case 4:17-cr-00074-A Document 2 Filed 05/05/17 Page 10 of 13 PageID 11
AO 245B

(Rev. 09/08) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT: JOSHUA RYAN DORMAN
CASE NUMBER: 5:14CR00011-001

3

of

6

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : three (3)

years

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

G

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)

✔
G
✔
G
G

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)

G

The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq .)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which he or she resides,
works, is a student, or was convicted of a qualifying offense. (Check. if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of
each month;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

19-11375.16

Case 5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 4 of 6 PageID #: 87
Case 4:17-cr-00074-A Document 2 Filed 05/05/17 Page 11 of 13 PageID 12
AO 245B

(Rev. 09/08) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

DEFENDANT: JOSHUA RYAN DORMAN
CASE NUMBER: 5:14CR00011-001

4

of

6

ADDITIONAL SUPERVISED RELEASE TERMS
The defendant shall pay any financial penalty that is imposed by the judgment.
The defendant shall provide probation officer with access to any requested financial information for purposes of monitoring
restitution payments and employment.
The defendant shall not incur new credit charges or open additional lines of credit without the approval of the probation
officer unless payment of any financial obligation ordered by the Court has been paid in full.
The defendant shall not participate in any form of gambling unless payment of any financial obligation ordered by the Court
has been paid in full.
The defendant shall participate in a program of testing and treatment for drug abuse, under the guidance and direction of
the U.S. Probation Office, until such time as the defendant is released from the program by the probation officer. The
defendant shall pay any cost associated with treatment and testing.
Under the guidance and direction of the United States Probation Office, the defendant shall participate in a combination of
psychiatric, psychological, or mental health treatment deemed appropriate by the treatment provider. The defendant shall
pay any cost associated with treatment and testing.

19-11375.17

AO 245B

Case
5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 5 of 6 PageID #: 88
(Rev. 09/08) Judgment in a Criminal Case
4:17-cr-00074-A
Document 2 Filed 05/05/17 Page 12 of 13 PageID 13
Sheet 5Case
— Criminal
Monetary Penalties
Judgment — Page

5

DEFENDANT: JOSHUA RYAN DORMAN
CASE NUMBER: 5:14CR00011-001

of

6

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

Fine

$ 100.00

Restitution

$ 0.00

$ 593.56

G

The determination of restitution is deferred until
after such determination.

G

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss*

Name of Payee

UNITED STATES GOVERNMENT

Restitution Ordered

$593.56

$

TOTALS

593.56

$593.56

$

Priority or Percentage

0%

593.56

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

✔
G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

✔
G
G

the interest requirement is waived for the
the interest requirement for the

G

fine

✔ restitution.
G fine G
G restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

19-11375.18

AO 245B

Case
5:14-cr-00011-RWS-RSP Document 25 Filed 04/28/15 Page 6 of 6 PageID #: 89
(Rev. 09/08) Judgment in a Criminal Case
4:17-cr-00074-A
Document 2 Filed 05/05/17 Page 13 of 13 PageID 14
Sheet 6Case
— Schedule
of Payments
Judgment — Page

6

DEFENDANT: JOSHUA RYAN DORMAN
CASE NUMBER: 5:14CR00011-001

of

6

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due as follows:
A

✔
G

Lump sum payment of $

G
✔
G

not later than
in accordance

693.56

G

C,

due immediately, balance due

G

D,

G

, or
E, or

✔ F below; or
G

B

G

Payment to begin immediately (may be combined with

G C,

G D, or

G F below); or

C

G

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

G

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

G

(e.g., 30 or 60 days) after release from
Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

✔
G

Special instructions regarding the payment of criminal monetary penalties:

Any restitution amount that remains unpaid when the defendant's supervision commences is to be paid on a monthly basis at a rate of at least 10% of the
defendant's gross income, to be changed during supervision, if needed, based on the defendant's changed circumstances, pursuant to 18 U.S.C. § 3664
(k). if the defendant receives an inheritance, any settlements (including divorce settlement and personal injury settlement), gifts, tax refunds, bonuses,
lawsuit awards, and any other receipt of money (to include, but not be limited to, gambling proceeds, lottery winnings, and money found or discovered)
the defendant must, within five (5) days of receipt, apply 100% of the value of such resources to any restitution still owed.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial
Responsibility Program, are made to: the U.S. District Court, Fine & Restitution, 1910 E SE Loop 323 No 287, Tyler, TX 75701
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G

The defendant shall pay the cost of prosecution.

G

The defendant shall pay the following court cost(s):

G

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

19-11375.19

APPENDIX C

Case 4:17-cr-00074-A Document 23 Filed 12/19/19

Page 1 of 4 PageID 181

Case 4:17-cr-00074-A Document 23 Filed 12/19/19

Page 2 of 4 PageID 182

Case 4:17-cr-00074-A Document 23 Filed 12/19/19

Page 3 of 4 PageID 183

Case 4:17-cr-00074-A Document 23 Filed 12/19/19

Page 4 of 4 PageID 184

